        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Montgomery County Department of
Housing and Community Affairs —
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-06                        January 2013
                                 Department of Energy
                                   Washington, DC 20585

                                       January 17, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Montgomery County
                         Department of Housing and Community Affairs — Weatherization
                         Assistance Program Funds Provided by the American Recovery and
                         Reinvestment Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Montgomery County
Department of Housing and Community Affairs (Montgomery County) Weatherization
Assistance Program (Weatherization Program) under the American Recovery and Reinvestment
Act of 2009 (Recovery Act). The Office of Inspector General (OIG) contracted with an
independent certified public accounting firm, Lani Eko and Company, CPAs, PLLC (Lani Eko),
to express an opinion on Montgomery County's compliance with Federal and State laws,
regulations and program guidelines applicable to the Weatherization Program. Montgomery
County is a sub-recipient of the Department of Energy's (Department) Recovery Act Weatherization
Program funding for the State of Maryland.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Maryland received $61 million in
Weatherization Program Recovery Act grant funding, of which $5.5 million was allocated to
Montgomery County. The State of Maryland's Department of Housing and Community
Development (State) was responsible for administering Weatherization Program grants,
including funds provided to Montgomery County.

OBSERVATIONS AND CONCLUSIONS

Lani Eko expressed the opinion that, except for the weaknesses described in its report,
Montgomery County complied in all material respects with the requirements and guidelines
relative to the Weatherization Program for the period April 1, 2009, to January 31, 2011.
                                                2


However, the examination found that Montgomery County had not:

   •   Properly accounted for 6 of 45 transactions reviewed, or 13 percent, charging the
       Weatherization Program $13,000 for items, including heating system
       repairs/replacements that, according to State policy, should have been paid with funds
       from other energy-related programs; and,

   •   Maintained records adequately accounting for equipment such as blower door systems,
       gas detectors and moisture meters purchased with Recovery Act funds.

The report makes recommendations to Montgomery County to improve the administration of its
Weatherization Program.

RECOMMENDATION

We recommend the Assistant Secretary for Energy Efficiency and Renewable Energy:

   •   Ensure appropriate action is taken by the State of Maryland to improve Montgomery
       County's administration of Recovery Act Weatherization Program funds.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation outlined in this memorandum. The
Department's Weatherization Assistance Program Project Officer, as part of the monitoring
responsibilities, worked with the State to ensure that Montgomery County complied with the
Program's documentation and resource accountability requirements. As a result, a monitoring
report, indicating issues with procurement of materials and services, was issued to Maryland in
January 2012.

The State concurred with Montgomery County findings and will continue to work with the
County to improve the weatherization program. The State took exception to Lani Eko's
classification of the "Questioned Costs and Reimbursements" finding as a material weakness.

Montgomery County did not fully concur with Lani Eko's findings. Lani Eko evaluated the
Montgomery County comments and revised the report as appropriate.

EXAMINATION-LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of Montgomery
County's policies and procedures and reviewing applicable Weatherization Program
documentation. The procedures also included an analysis of inspection results, records of
corrective actions and re-inspections of completed homes/units to ensure any failures were
properly corrected. Finally, an analysis of associated cost data was performed to test the
appropriateness of payments.
                                                3


The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Lani Eko did not comply, in all
material respects, with the attestation requirements. Lani Eko is responsible for the attached
report dated December 19, 2012, and the conclusions expressed in the report.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Energy
      Chief of Staff
                                                      Attachment 1




 Report on Examination Level Attestation Engagement

                         Of

                Montgomery County

Recovery Act Weatherization Assistance Program Funds



     Performed for the U.S. Department of Energy
             Office of Inspector General

                       Under

          Contract Number: DE-IG0000015
           Work Order Number: 2010-07



                         By



         Lani Eko & Company, CPAs, PLLC



                 December 19, 2012
                                                                                       Attachment 1 (continued)


                                          TABLE OF CONTENTS



INDEPENDENT ACCOUNTANT’S REPORT .............................................................1


DESCRIPTION OF MONTGOMERY COUNTY DHCA WEATHERIZATION
ASSISTANCE PROGRAM ..............................................................................................2


CLASSIFICATION OF FINDINGS ................................................................................3


SUMMARY OF FINDINGS .............................................................................................4


SCHEDULE OF FINDINGS ............................................................................................5
Attachment 1 (continued)




                   6
                                                                         Attachment 1 (continued)

        SECTION I. Description of Montgomery County Department of Housing and
                Community Affairs Weatherization Assistance Program

The U.S. Department of Energy awarded $61,441,745 to the State of Maryland to allocate among
its network of 18 local governments and various nonprofit organizations participating in the
Weatherization Assistance Program (Weatherization Program). From this award, $5,479,944
was allocated to Montgomery County (County) Department of Housing and Community Affairs
(DHCA) to assist with the costs of weatherizing approximately 900 homes. In Maryland, the
Weatherization Program is administered by the State Department of Housing and Community
Development (State DHCD).

DHCA partners with the State DHCD to operate the Weatherization Program. In accordance
with the terms of this agreement, the County is responsible for determining applicant eligibility
and taking the necessary steps to weatherize the applicant's home. These steps include
procurement of contractor's services, as well as conducting home assessments and inspections.

The Weatherization Program helps eligible low-income households lower their energy costs by
increasing energy efficiency. The primary focus is on the problems of heat loss and air
infiltration. Energy conservation and efficiency methods utilized by the Weatherization Program
include measures that reduce energy consumption and the cost of maintenance for weatherized
homes. In addition to the material improvements, energy conservation education is provided to
participants. For the period from April 1, 2009 through January 31, 2011, DHCA reported that it
had completed weatherization of 255 units under the Weatherization Program.




                                               2
                                                                             Attachment 1 (continued)

                            SECTION II. Classification of Findings


The findings in this report are classified as follows:
Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
adversely affects the County's ability to initiate, authorize, record, process or report data reliably
in accordance with the applicable criteria or framework such that there is more than a remote
likelihood that a misstatement of the subject matter that is more than inconsequential will not be
prevented or detected.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the County's ability to record, process, summarize and
report data reliably. The advisory comment presented represents a matter that came to our
attention during the course of the review and is offered to the County's management as an
opportunity for improvement. The advisory comment is provided along with suggestions and
discussion of the significance of the comments.




                                                  3
                                                                  Attachment 1 (continued)




                           SECTION III. Summary of Findings

1. Questioned Costs and Reimbursements – Significant Deficiency

2. Recordkeeping – Significant Deficiency

3. Weatherization Program Eligibility – Advisory Comment




                                             4
                                                                           Attachment 1 (continued)




                              SECTION IV. Schedule of Findings

Finding 1. Questioned Costs and Reimbursements — Significant Deficiency


Condition

State DHCD reimbursements to DHCA in the amount of $13,000 from the Recovery Act fund
were not supported by DHCA's accounting records. In the Hancock Energy System (Hancock),
we noted 6 instances out of 45 where DHCA charged weatherization services to the Recovery
Act fund code which, according to DHCA's accounting records, should have been charged to
other funding sources. The allocation of weatherization costs to funding sources in the
accounting records provided to us by DHCA for examination were approved by DHCA's
authorized official. DHCA used Hancock to invoice weatherization costs to the State DHCD.
Each weatherization job was invoiced to the State DHCD by the funding source (i.e. U.S.
Department of Energy, U.S. Department of Health and Human Services, gas and/or electric
utility company, etc.). Payment by the State DHCD, on an invoiced weatherization job, reduced
the available cash balance from the funding source.

Following the initial identification of questionable costs, the State performed an extensive review
of the Montgomery County Weatherization Assistance Program. In December 2010, the State
temporarily suspended reimbursements to Montgomery County until Montgomery County
implemented a formalized corrective action plan. As a result of its review, which concluded in
May 2011, the State requested reimbursement from Montgomery County in the amount of
$52,990, which included the costs associated with four of the transactions we tested.
Montgomery County repaid the State in June 2011.

Per DHCA, weatherization costs should be charged to the funding sources in Hancock in
accordance with the cost allocation approved by t h e appropriate official in the
accounting department. Further, Chapter 11 of the State DHCD's Program Operations Manual
states that the County's invoice for reimbursement "must be complete, accurate and contain all
expenses related to providing WAP services to the subject property."            The Program
Operations Manual also states that "material and labor costs will be reimbursed as reported in
each category of the 'County's invoice'."

Cause

We attribute the deficiencies noted above to inadequate supervisory review of the reimbursement
process to ensure that requests for reimbursements under the Recovery Act are matched to
underlying accounting records, such as invoices and receiving reports.




                                                5
                                                                        Attachment 1 (continued)



                       SECTION IV. Schedule of Findings (continued)

Effect

We are questioning $13,000 that DHCA was reimbursed for improperly allocated weatherization
services. Uncorrected, improper charges to Recovery Act funds reduce the amount of Recovery
Act funds available for weatherization of eligible dwelling units.

Recommendation

We recommend that:

1.1      DHCA reviews its procedures for monitoring and approving requests for reimbursement
         prior to submission to the State DHCD. This will help to ensure that DHCA's requests
         for reimbursement using Recovery Act funds are adequately supported with sufficient,
         competent and relevant documentation.

Management Response

Montgomery County DHCA did not agree that the $13,000 discussed above was improperly
allocated to the Recovery Act program; DHCA management contends the program funding source
was correctly identified in the accounting system of record. Management believes that the
mismatch of funding sources was merely an input error in the Hancock System rather than a
"questioned cost/reimbursement." In addition, management noted that the $52,990 questioned by
State has been repaid.

Auditor Response

The State confirmed the erroneous payments to DHCA totaling $13,000 and noted the error was
made because of information mistakenly entered into the Hancock System, which only allocates
funds to the Recovery Act code. We continue to believe the $13,000 is a questioned cost that needs
to be resolved.




                                               6
                                                                        Attachment 1 (continued)



                      SECTION IV. Schedule of Findings (continued)


Finding 2. Recordkeeping—Significant Deficiency

Condition

We noted several instances where DHCA failed to maintain proper documentation sufficient to
ensure compliance with Weatherization Program requirements. Specifically, we noted the
following deficiencies in DHCA's recordkeeping as they pertain to equipment and materials:

  DHCA communicated to us that physical inventory counts are performed every six months,
  including counts of equipment and materials purchased with Recovery Act funds. However,
  DHCA did not produce and maintain a written record of the counts.

  DHCA did not maintain an accurate record of equipment and materials. We reviewed
  DHCA's listing of equipment and materials purchased with Recovery Act funds along with
  the supporting Equipment Assignment Sheets and invoices, and we determined that the
  County had not reported all of the approximately $14,000 equipment and materials acquired
  with Recovery Act funds on the listing that was provided.
Federal regulations require grantees and sub-grantees receiving financial assistance under the
Weatherization Program to maintain records necessary for an effective audit and performance
evaluation.

Cause

DHCA management did not ensure that inventory control procedures met recordkeeping
requirements as a subgrantee of State DHCD and a recipient of Recovery Act funds. In addition,
we found no evidence of a formal asset management system maintained by DHCA.

Effect

As a result of DHCA's lack of adequate records for its inventory of equipment and materials,
there is an increased risk that errors and irregularities may be occurring and not detected in a
timely manner. Additionally, there is an increased risk that equipment and materials funded by
the Recovery Act may not be used as intended by the terms of the grant.




                                               7
                                                                            Attachment 1 (continued)



                        SECTION IV. Schedule of Findings (continued)


Recommendation

We recommend that DHCA's management:

2.1 Update current inventory control procedures to separately account for and document the use
    and maintenance of equipment and materials purchased with Recovery Act funds.

2.2 Maintain sufficient, competent, and relevant records of equipment and materials purchased
    with Recovery Act funds.

Management Response

DHCA believes its equipment recordkeeping is adequate to ensure effective audit and inventory
control. DHCA, for custodial purposes, assigned equipment purchased with Recovery Act funds to
two of the four DHCA staff who are responsible for performing audits on homes of income eligible
applicants under the Weatherization Program under the Recovery Act. On acceptance of
equipment, DHCA staff signed "Weatherization Equipment Assignment" (WEA) sheets, which are
maintained by the Weatherization Program Manager. Equipment listed on the WEA is clearly
identified and labeled to facilitate on-going tracking.

Auditor Response

The Department of Energy requires that grantees maintain effective control and accountability over
all grant and subgrant cash, real and personal property and other assets. Additionally, grantees
must adequately safeguard all such property and assure that it is used solely for authorized
purposes. During the scope our review (April 1, 2009 through January 31, 2011), DHCA was
unable to provide evidence that it conducted a physical inventory of equipment. Basic inventory
controls, including periodic physical inventories, are essential to ensuring that grant assets are used
for stated purposes and protected against theft or damage.




                                                 8
                                                                      Attachment 1 (continued)


                     SECTION IV. Schedule of Findings (continued)


Finding 3. Weatherization Program Eligibility—Advisory Comment

Condition A – Dwelling Unit Eligibility

We noted that DHCA did not have formal procedures in place (and no documentation was
provided to us for examination) to indicate that it verified dwelling units' compliance
with Federal requirements that prohibit use of Federal funds to weatherize dwelling units
designated for acquisition or clearance by a Federal, state or local program within 12
months from the date weatherization of the dwelling units would be completed. DHCA
stated they are participants in the County's "Clearinghouse Review" team; as a result,
DHCA staff would be aware of potential acquisitions or clearance of dwelling units by a
Federal, state or local program. DHCA's participation in the Clearinghouse Review team
may assist with the detection of potential acquisitions and clearances; however, further
formalization of this process, including agency confirmations with homeowners, can ensure
compliance with Federal regulations.

Condition B – Applicant Eligibility

We noted 1 out of 45 instances in which DHCA did not verify income of all eligible
occupants of a dwelling unit. Specifically, we noted that the person listed as the deed
holder of the weatherized dwelling unit and also an occupant in the weatherized
dwelling unit was not listed on the application for weatherization assistance and the
owner/occupant income was not verified by DHCA.

Following our request for additional detail on this client, the State informed us that this
family had been determined eligible for weatherization services by the Maryland Office
of Home Energy Programs (OHEP) using Low Income Home Energy Assistance Program
(LIHEAP) requirements and that the State is not required to re-certify the work performed
by OHEP. While the Department stipulates that certifications by outside agencies are
sufficient, the support contained within the file and provided by the State was insufficient to
verify applicant eligibility. For instance, the Department requires that third party
certifications be accompanied by a memorandum from a third party certification office
stipulating the income levels of the family and source documentation for each income
source listed on the application.

Cause

DHCA personnel were not aware of Federal requirements that prohibit use of Federal funds
to weatherize dwelling units designated for acquisition or clearance by a Federal, state or
local program within 12 months from the date weatherization of the dwelling units would be




                                              9
                                                                      Attachment 1 (continued)

                     SECTION IV. Schedule of Findings (continued)

completed. Also, DHCA did not have adequate procedures to verify accuracy of
 representations made in the application forms to ensure that they include income data of
all occupants in the dwelling units.

Effect

There is an increased risk that DHCA improperly provided weatherization services to
ineligible applicants and dwelling units, thereby reducing the amount of Recovery Act funds
available for eligible applicants and dwelling units.

Recommendation

We recommend that DHCA:

3.1 Include in its application procedures specific inquiries to determine whether the
   homeowner is aware of any potential Federal, state or local program's designation of
   their home for acquisition or clearance.

3.2 Review applications in detail sufficient to ensure that the income data of all occupants
    of the dwelling unit are reported in the application forms and verified in accordance with
    guidelines of the Weatherization Program.

Management Response

Montgomery County DHCA stated that its participation on the Clearinghouse Review team is
sufficient to ensure that dwelling units receiving weatherization services are not scheduled to
be razed by a Federal, State or local program within 12 months completion of weatherization
services. DHCA is the lead housing agency for Montgomery County, and its senior staff,
including the Weatherization Program Manager, are quite aware of any such scheduled
activity. To its knowledge, no houses weatherized under WAP have been razed.

DHCA disagreed with our characterization that it did not verify the income of all eligible
occupants dwelling within a specific property. The person listed as the deed holder was not an
occupant of the property and, therefore, was not included in the calculation of household
income. Further, DHCA relied upon the income verification provided by staff from LIHEAP;
as such, additional independent income verification was not needed.

Auditor Response

DHCA's participation in the "Clearinghouse Review" team may assist with the detection of
potential acquisitions and clearances; however, formalization of procedures and additional
verifications can ensure more comprehensive compliance with Federal regulations. For



                                             10
                                                                     Attachment 1 (continued)

                    SECTION IV. Schedule of Findings (continued)

instance, the local agency lacks documented procedures for comparing new weatherization
applications with the decisions made during the Clearinghouse Review team meetings. These
procedures would ensure continuity of processes should personnel changes occur. Further, an
additional check box on the client application could assist DHCA in determining whether the
homeowner is aware of any potential Federal, state or local program's acquisition or clearance.

We believe that we received sufficient evidence during the review to determine that the
individual involved owned and occupied the home in question. Specifically, we were provided
a Real Property Data Search from the Maryland Department of Assessments and Taxation
website dated May 19, 2009. The property was described as the "Principal Residence for the
individual. Therefore, the individual's income should have been included as part of the
Weatherization Assistance application procedures. We agree that Montgomery DHCA did not
need to complete a full income verification because an outside agency had already done so;
however, third party certifications must be accompanied by a memorandum from a third
party certification office stipulating the income levels of the entire family. Without the
individual's information, we believe that the support contained within the file and provided by
the State and County were insufficient to fully verify applicant eligibility.




                                            11
     Attachment 1 (continued)




12
     Attachment 1 (continued)




13
     Attachment 1 (continued)




14
     Attachment 1 (continued)




15
     Attachment 1 (continued)




16
     Attachment 1 (continued)




17
                                                                     Report No. OAS-RA-13-06

                     CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:


     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:


                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
